                                           NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

TO: AlGI          File Number: 191040011                                       Date: 04 March 2002

Subject: Closeout Memo                                                                    Page 10fl


      There was no closeout written at the time this case was closed. The following infonnation was
      extracted from the file in confonnance with standard closeout documents.

      Our office was infonned that the subj eetl was alleged to have made false statements or claims. The
      subj ect pled guilty to 18 USC 666 and was sentenced to 6 months imprisonment, 3 years probation,
      and restitution. The subject's institution2 refunded $120,140 to NSF.

      Accordingly this case is closed.




      I   David Berrien
      2   National Academy of Sciences



                    Prepared by:                    Cleared by:

                  Agent:            Attorney:     Supervisor:     AlGI
   Name:



 Signature &
    date:

      OIG-02-2
  lID,. S fIIIIw.'" Shell 1 • Juclpm!nt In • CrtmInII c...
                                             ~                                              '~T'

                                                                                                                   F I LED
                                   1tnittb 6tatt9' .i9'trid o€ urt 
                                               NOV 15 1991
                                    for the                      Dlatrlct of     COLUMBIA
                                                                                                            . Clerk, U.S. Dls!l'ict Court
                   UNITED STATES OF AMERICA                                    JUDGMENT IN A CRIMI,."ICASlolumbf:t
                                                                       (For Offen... Committed On or After November 1,1887)
                              V.
                 DAVID BERRIEN                                          Case Number:           91-480

                             (Name of Defendant)                          Carrie L. Fair, Esquire
                                                                                            Defendant's Attorney
THE OEFENOANi:
g pleaded guilty to count(s)                the one count          j   ntorma H on                                                  .
o was found guilty on count(s)                                                                                                after a
    plea of not guilty.
     Accordingly, the defendant is adjudged guilty of such count(s). which involve the following offenses:
                                                                                                   Dale Offense         Count
TIlle & Section·                    Nature of Offense                                               Concluded          Number(s)
                                   ~hefCFrom A               Federally        Funded        Prior to and                 one
18:U.S.C.                          Program                                                  after 11/1/87
666(a) (1) (A)




    The defendant is sentenced as provided in pages 2 through         5     of this judgment. The sentence is
imposed pursuant to the Sentencing Reform Act of 1984..
IJ The defendant has been found not guilty on count(s) ____________________
   and is discharged as to such count(s).                                                .
o  Count(s)                                                (is)(are) dismissed on the motion of the United States.
S. It is ordered that the defenda~t shall pay a special assessment of $ 50                           • for CQunt(s)
   _ _ _ _ _ _ _ _ _ _ _ _ _ _• which shall be due 0 immediately IiI as toiflllWa:xxd;.rected
                 _      .      .                              by the Probation Officer                  .
    'fr fS1'URTH!1!«~~bE'A'ED'1h'atihe defendant shan notify the United States attomey for this district within
30 days of any change of name, residence. or mailing address until all fines, restitution, costs. and special
assessments imposed by this judgment are fully paid.

1)efendant~ Soc. Sec. No.:

Defendant~ Date of Birth:                                                 November 15, 1991
                                                                              ~te of ImpqsItion of Sentence
Defendant~ Mailing          Address:
                                                                          .             C.~y/;;f
                                                                                       e-




Defendant's Residence Address:

                                                                                                     Date
 AO 2M S (Rev. 4180) She« 2 • Imprilonment


Defendant: BERRIEN. David                                                                 Judgment-Page 2             .of ..-5
Case Number: 91-480
                                                          IMPRISONMENT

     The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for
a term of SIX ( 6) MONTHS




o The court makes the following recommendations to the Bureau of Prisons:



o The defendant is remanded to the custody of the United States marshal.
o The defendant shall surrender to the United States marshal for this district,
                       a.m.
      o at             p.m. on      _~_ _ _ _ _ _ _ __
      o as notified by the United States marshal.
11 The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons,
        o before 2 p.m. on _ _ _ _ _ _ _ _ __
        o as notified by the United States marshal.
       ltJ   as notified by the probation office.

                                                               RETURN

      I have executed this judgment as follows:




     Defendant delivered on - - - - - -
                                                          to   -~------------        ________~m
                                                                        . with a certified copy of this judgment.
                                                                                          t




                                                                                              United States Marshal


                                                                       By                       Deputy Marshal
 AO 245 S /Rev. 4190) Sheet 3 - SuperviHd R.ale


. Defendant: BERRIEN, DaviL 	                                                                              JIJ",Jment-Page                3        of      5
  Case Nutnber: 91- 4 80
                                                               SUPERVI$ED RELEASE


       Upon release from imprisonment. the defendant shall be on supervised release for a term of _ _ _ __
         THREE (3) YEARS


     While on supervised release, the defendant shall not commit another federal. state. or local crime and shall not
illegally possess a controlled substance. The defendant shall comply with the standard conditions that have been
adopted by this court (set forth below). If this judgment imposes a restitution obligation. it shall be a condition of
supervised release that the defendant pay any such restitution that remains unpaid at the commencement of the
term of supervised release. The defendant shall comply with the following additional conditions:

o The defendant shall report in person to the probation office in the district to which the defendant is released
     within 72 hours 'of release from the custody of the Bureau of Prisons.

·0 The defendant shall pay any fines that remain unpaid at the commencement of the term of supervised release.
R!   The defendant shall not possess a firearm or destructive device.                                  The Defendant shall com~ly
     with the following special conditions:
     1. 	 The defendant shall participate in                                                bome confinement for a period of
          120 days.
     2. 	 The defendant to pay restitution t~ the American ManufacturinqIrtsuran(
          Co., in the,amount of $105,067, commencing 30. days after after he obtai'
          emp1c-yment,/A "H.u,!_"u wi""- ~ 41N.c.... -.A: ""I'~ ".S'7--.Aer, A./j/7r.",...t 1-, ~
           c-",       r""
                 #ti~ ,(~.
     3. 	 The defend.ant to provide the probation office with access to his 

          financial information upon request. 

                                               STANDARD CONDITIONS OF SUPERVISION
     While the defendant is on superv!.sed release pursuant to this judgment, the defendant shall not commit another federal, state or local crime. In addition:

 1) the defendant shall not leave the judicial district without the permission of the court or probation officer;
 2) the defendant Shall report to the probation officer as directed by the court or probation officer and shall submit atruthful and complete written report within
    the first five days of each month;
 3) the defendant shall answer truthfully all inqllirles by the probation officer and follow the instructions of the probation officer;
 4) the defendant shall support his or her d~pendents and meet other family responsibilities;
 5) the defendant shall work regularfy at a lawful occupation unless excused by the probation officer for schooling, training, or other acceptable reasons:
 6) the defendant shall notify the probation officer within 72 hours of any change in residence or employment;
 7) the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any narcotic or other controlled
    substance, or any paraphernalia related to such substances, except as prescribed by a physician;
 8) the defendant Shall not frequent places where controlled substances are Dlegally sold, used, distributed, or administered;
 9) the defendant Shall not associate with any-persons engaged in criminal activity, and shall not associate with any person convicted of a felony unless
     granted permission to do so by the probation officer;                               .
10) the defendant shall permit aprobation officerto visit him or her at any time at home or elsewhere and shall permit confiscation of any contraband observed
    In plain view by the probation officer;
11) the defendant shall notify the probation offICer within seventy-two hours of being arrested or questioned by a law enforcement officer;
12) the defendant shall not enter into any agreement to act as an informer or a special agent of a lawenforcemenl agency without the permission of the court;
13) as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendants criminal record or personal
    history or characteristics, and shall permitlhe probation officer to make such notifications and to confirm the defendants compliance with such notification
    requirement.

     The Court finds that the defendant is unable to pay any fine, costs of 

     incarceration, or supervised release because of the la~ge amount of 

     restitution owed. 

 AD 28 S (Rev. 4Il101 Sheet 6 . RntiMlon .net Fo.. ."I'feIt:=ure====================- -====================
                                  \                   -
                                  J

 Defe"ndant: BERRIEN, Davia                                             Judgment-Page         4   of---.S
'Case Number: 91-480
                                      RESTITUTION AND FORFEITURE

                                                RESTITUTION
~ The   defendant shall make restitution to the following persons in the following amounts:
        Name of Payee 	                                        Amount of Restitution
       American Manufacturers' Insurance                        $105,067.00
       Ccmpany
       Claim
       P. O. Box 3646
       Fairfax, Virginia 22038
       Attention:




Payments of restitution are to be made to:
  o the United States Attorney for transfer to the payee(s).
  [iI the payee(a).

Restitution shall be paid:

   o in full immediately.
   o in full not later than _ _ _ __
   o in equal monthly installments over a period of       months. The first payment is due on the date of
      this Juagment. Subsequent payments are due monthly thereafter.

 lCI!J 	 in installments according to the following schedule of payments: CommenCing 30 days after the
         defendant obtains employment. defendant shall enter into a
         Voluntary Allotment with his employer to pay 25\ of his gross salary less
         mandatory deductio~s . under law (including health insuranc~.




Any payment shall be divided proportionately among the payees named unless otherwise speCified here.


                                              . FORFEITURE
  o The defendant is ordered to forfeit the following property to the United States:
    AO 245 S {Rav. 41901 Sheet 7 • Stetement of Re.sons

                                                                                         j
• Defendant:   BERRIEN, Davi.d                                                      Judgment-Page --..5      of~
- Case Number: 91-480
•                                                            STATEMENT OF REASONS

    lSi The court adopts the factual findings and guideline application in the presentence report.
                                                                               OR
    o The court adopts the factual findings and guideline application in the presentence report except
        (see attachment, H necessary):




    Guideline Range Determined by the Court:
        Total Offense Level: _ _ _,_'1______
                                      .,..                                 

        Criminal History Category: __"..;;;;;I~____                        

        Imprisonment Range:               /0      to  I '- months
        Supervised Release Range:                'Z- to ~ years
        Fine Range: $            ',I>   10       to $       ~o,..   DO 0

                S    Fine is waived or is below the guideline range, because of the defendant's inability to pay.
        Restitution: $         lOS;. Ii ,       7.   IJ •


                 o Full restitution is not ordered for the following reason(s):

.g The sentence is within the guideline range, that range does not exceed 24 months, and the court finds no
        reason to depart from the sentence called for by application of the guidelines.

                                                                               OR
    o   The sentence is 'within the guideline range, that range exceeds 24 months, and the sentence is imposed
        for the foUowing reason(s):      I




                                                                               OR
    The sentence departs from the guideline range

        o upon motion of the government, as a result of defendant's substantial assistance.
        o for the following reason(s):
,..
.•

                           UNITED STATES DISTRICT COURT
                           FOR THE DISTRICT OF 	 COLUMBIA        F I LED
      UNITED STATES OF AMERICA, 	      )
                                                                 NOV 1.5 1991
                                       )                    Clerk, U.S. District Court
                                       )
                       Plaintiff,                              District of Columbt.r
                                       )              .......

                                       )
                                       )
                v. 	                   ) Criminal Action No:        91-480 RCL
                                       )
                                       )
      DAVID A. BERRIEN 	               )
                                       )
                                       )
                       Defendant(s).   )
      -------------------------)
                           AGREEMENT TO PAY RESTITUTION
           Plaintiff and defendant having consented to the entry of this
      agreement, as evidenced by their signatures, hereon, hereby agree
      as follows:
           1.   The defendant hereby agrees to the entry of this pay
      agreement as part of the Judgment and Probation/Commitment Order
      in this case to satisfy restitution to the American Manufacturers'
      Insurance Company in the amount of $105,067.00.
           2.   Commencing     30   days   after   the   defendant         obtains
      employment, defendant shall enter into a Voluntary Allotment with
      his employer to pay 25' of his gross salary less mandatory
      deductions under law (including health insurance).          Said payments
      will be made each pay period and made payable to:
           American Manufacturers' Insurance Company 

           Claim             

           P. O. Box 3646 

           Fairfax, Virginia 22038 

           Attention:             

·'
"


              ~his   wage assignment may be revoked only with the consent of the
              United States Attorney (D.C.) or his/her designee.
                     3.   Defendant further agrees to execute an assignment to the
              benefit of the American Manufacturers' Insurance Company of any
              inheritances he receives during the period this debt remains unpaid
              up to the balance due.
                     4.   Plaintiff and defendant hereby agree to the above payment
              plan with" the following special provisions:           (a)     the defendant
                 •
              will submit updated financial information every six months while
              this    debt   remains    outstanding;      (b)    the       defendant   will
              increase/decrease      his/her    monthly   payments   if     the   plaintiff
              determines that the updated financial information indicates the
              ability to do so.
                     S.    It shall be the duty of the defendant to keep the
              Financial Litigation Unit of the United States Attorney's Office
              for the District of Columbia informed of address changes.             Failure
              to do so will constitute a default and may be punishable by
              contempt of Court.
                     6.    Default under the terms of this agreement will entitle
     -.'IJ,   the United States of America or the victim to execute on this
     y.K.A\.. '2l3t'€eMeN-
         ~ iw ~OAC without notice to the defendant.
     R"" D
                     7.    ~he   defendant has the right to prepayment of this debt
              without penalty.
                     8.   It is understood and accepted by all parties that this
              agreement shall       remain in    full   force and effect beyond the
              expiration of defendant's probation or any extensron thereof until
.    •

••
         said restitution is paid in full.

                                                        _ _ _, 199_.




         D~BERRIEN
         Defe   ant

                      I~
            RIE L. FAIR
         FAIR & HENDERSON
         1025 Connecuticut Ave., N.W.   Suite 100
         Washington, D. C. 20036
         Attorney for Defendant




                                                    "
                                                 United State.        I\.ttorney

                                                 District of Columbia


                                                 Judiciary Center
                                                 j j j Fourth St. N. W.
                                                 Washington. DC 2000}

Contact:     Mark Liedl                                    FOR IMMEDIATE RELEASE
             (202) 514-6930                                September 12, 1991

                                   PRESS RELEASE 

                                 Jay B. Stephens 

                             United States Attorney 

                          for the District of Columbia 


                                           I
       United States Attorney Jay B. Stephens announced that David

A. Berrien, formerly a Program Specialist with the National Academy
                                                                                                                                   ~

 of   Scie.nces,    pleaded    guilty      today      in· U.S.            District                           Court                 to
 embezzling money from a federally funded program.                                      Berrien, 2~, of
 the 1400 block of Taylor St., NW, Washington, D.C., admitted to a

 scheme which netted him more than $105,000 from a program that

 funded visiting Soviet and East European scientists.
       During the period of the . embezzlement,                           Berrien, who began

working     at     the    National .Academy          of      Sciences                     in             1986,                  was
.. responsible for meeting foreign. sCientists comin9 to the United

 States to work temporarily on research projects.                                        As part of his
 duties, Berrien was responsible for making sure that the visitors

 received funds provided by the National Academy of Sciences for

 their housing,         living, and transportation money provided by the

 National Academy of Sciences.

       U.S. Attorney Stephens noted, I'From April 1987 to March 1991,

 Mr. Berrien submitted over 60 bogus vouchers to obtain funds for
 scientists      that    didn't   exist,       scientists          that            cancelled their




                                                               ... ' ....... --   ~-   -"-',"   ...... , .... _.- ........................- . . ,'--
                                                                                                                                         -             ," 

                                     trips, and for additional money not needed by scientists already

                                     working in the United States.                                                                                                  The fraudulent vouchers ranged in

                                     amounts from $600.00 to $2,800.00."

                                                                Berrien is scheduled to be sentenced on November 7 before

                                     United States District Judge Royce C. Lamberth.                                                                                                                                                                      He faces a maximum

                                     sentence of 10 years imprisonment and a $250,000 fine.

                                                                U.S. Attorney Stephens commended the investigative work of

                                     Special                                                  Agent            George             Martinez                                          . of                       the                            Federal                                   Bureau                                             of
                                     Investigation,                                                            Special ,Agent                                        Paul                            Coleman                                        of             the                     Office                                          of .

                                     Inspector' General of the National Science :f0undation~and Wendy
                                                            .                ,.,.'                                                                                  \l,                      '
                                     Batkin, Internal Auditor for the National Academy of Sciences . . He

                                     also praised the work of Assist'ant u. S. Attorney Linda I. Marks,

                                     who prosecuted the case.




                                                                                                                                                                                         .       .




      •       -.   .........   ':'   ~   -   ....   ~.   '.....   ~.   ,-'   ; ...... '   "   ..........   -                      .- : ' •   .';'.-   ,......   •                                     •   .......   'O • •   ,".   ~ _,"~_,' ~_. _""~_.,. ,.',:'.~"-
                                                                                                                                                                                                                                              ••                       ••
                                                                                                                                                                                                                                                                        - . , . ' , , . _ ' .: - : : - , : , . : - . _ ' ' : ' .   -"":-.~."~*,~~-'-:

._:'~_ _;_":""!''-':'-'::_ _ ·';'I' ".;',"';'_--~';""-:'':''-:;-_~';'''I''-.'':\_..__.. ':""",::-.._VI~"'..· -""",.",,·- - _ ......._ ...... _         ....., ;......... _   ':---...... ,.....,...:..... - .• ;-'.:- •            ""'- - -        ----    •   -   ~                                         - ,.         ~           ".........,..-   ,   WI. 

